Page 2 - Alma L. Golden

Title X was funded at $280 million in fiscal year (FY) 2004. Title X supports
approximately 4,600 clinics and provides reproductive health services to roughly
5 million persons a year. The program provides for grants and contracts in the areas of
service, training, research, and information/education. The service and training grants,
which are most relevant to our review, are described below.

Service Grants Title X funded service delivery grants to 86 public and private
organizations in FY 2004. These grantees may directly provide services or contract with
subgrantees, known as delegates, or both. Services are delivered through community-
based clinics that include State and local health departments, hospitals, university health
centers, independent clinics, and public and nonprofit agencies.2 OPA’s 10 regional
offices award service grants and monitor program performance. Each grantee is
responsible for monitoring its delegates’ performance.

Training Grants Title X training grants support 10 regional training centers and 2 clinical
specialty training grantees. These organizations train personnel of Title X service
grantees and delegates to carry out family planning programs, with the clinical specialty
training grantees focusing primarily on clinical skills needed to provide family planning
care.

State Reporting Laws and Title X

Title X does not establish a requirement for program grantees to report instances of child
abuse, child molestation, sexual abuse, rape, or incest as such. Rather, State law
determines reporting requirements regarding these offenses. The FY 1999 Omnibus
Appropriations bill (P.L. 105-277 Section 219) first addressed State reporting laws and
their relevance to Title X. Specifically, it stated that Title X grantees were not exempt
from State reporting requirements:

            Notwithstanding any other provision of law, no provider of services under title X
            of the Public Health Service Act shall be exempt from any State law requiring
            notification, or the reporting of child abuse, child molestation, sexual abuse, rape,
            or incest.

The same language has been included in appropriations laws every year since 1999.
Most recently, this language is in Section 212 of Public Law 108-447, which includes the
appropriations for the Departments of Labor, Health and Human Services, Education, and
related agencies for FY 2005.

All States have laws mandating reporting of child abuse, but these State laws vary
considerably in their definitions, scope, and procedures.3 Under the Federal Child Abuse

2   http://opa.osophs.dhhs.gov/titlex/ofp.html, accessed 8/4/04.
3   Abigail English and Catherine Teare, “Statutory Rape Enforcement and Child Abuse Reporting: Effects on Health
    Care Access for Adolescents,” 50 DePaul L. Rev., 827, 838-840 (2001).
Page 3 - Alma L. Golden

Prevention and Treatment Act (CAPTA), each State must have a State law or a statewide
program that provides for the reporting of child abuse and neglect.4 The CAPTA
provides minimum guidelines that States must incorporate in their statutory definitions of
child abuse and neglect.5

Based on CAPTA guidelines, each State provides its own definition of child abuse and
neglect. States generally provide separate definitions for physical abuse, neglect, sexual
abuse, sexual exploitation, and emotional maltreatment. Some definitions are detailed,
while others are general.6

All States include sexual abuse as a form of child abuse, although the definition of sexual
abuse varies. For example, some States include statutory rape in their definitions of
sexual abuse, while others do not. The definition of statutory rape and the requirements
for reporting it also vary among States.7

Each State designates certain individuals, typically by professional group, who are
mandated by law to report child abuse and neglect. These individuals include health care
workers, school personnel, social workers, childcare providers, and law enforcement
officers. All States have enacted statutes specifying procedures that a mandatory reporter
must follow when making a report of child abuse or neglect. Generally, the initial report
may be made orally to either the child protective services agency or to a law enforcement
agency.8

Methodology

The information presented in this memorandum is based on our review of relevant
documents issued by OPA and its training grantees; a written survey of OPA regional
office representatives; and structured interviews with representatives from OPA’s central
office, regional offices, and training grantees.

Document Review We reviewed the following documents related to Title X program
requirements:

       • 	 January 12, 1999, memorandum from the Deputy Assistant Secretary for
           Population Affairs to the Regional Health Administrators with the subject line,
           “OPA Program Instructions Series, OPA 99-1: Compliance With State Reporting
           Laws;”



4   42 U.S.C. § 5106a(b)(1)(A)(Supp. 2003); 42 U.S.C. § 5106a(b)(2)(A)(i)(Supp.2003). 

5   42 U.S.C. § 5106g. 

6   http://nccanch.acf.gov/general/legal/statutes/sag/define.cfm, accessed 4/21/04. 

7   English and Teare. 

8   http://nccanch.acf.gov/general/legal/statutes/sag/define.cfm, accessed 4/21/04. 

   Page 4 - Alma L. Golden

   • 	 Federal Register, Vol. 69, No. 129, Wednesday, July 7, 2004, which contains the
       announcement of anticipated availability of funds for family planning service
       grants for FY 2005;
   • 	 “Notice of Grant Award,” which is the official document notifying a grant
       applicant of funding approval and outlining the terms and conditions of the grant;
       the notice is issued to grantees every year they receive funding;
   • 	 “Program Guidelines for Project Grants for Family Planning Service,” developed
       by OPA in January 2001 for current and future grantees; it explains project
       management and administration, client services, and clinic management;
   • 	 “Office of Family Planning Regional Work Plan Guidance, Fiscal Year 2004,”
       which instructs the regional offices on how to develop their work plans;
   • 	 “Fiscal Year 2004 Regional Memorandum of Agreement,” which describes the
       agreement between OPA and the regional offices on the use of Title X funds and
       program monitoring;
   • 	 “Title X Program Review,” January 2003, which is the assessment tool used by
       all but one region in their comprehensive program reviews;
   • 	 “Site Visit Protocols for Conducting Program Reviews of Title X Family
       Planning Projects, Reviewers Manual,” June 2003, which is the assessment tool
       used by the remaining region in its comprehensive program reviews;
   • 	 Presentation materials from OPA’s national conferences, September 2002 and
       July 2003; and
   • 	 Training materials and meeting agendas from all 10 regional training centers and
       the 2 clinical specialty training grantees.

Survey of Regional Offices We conducted a written survey of the regional program
consultants in each of the 10 regional offices. This survey included the following topics:

   • 	 The number of comprehensive program reviews conducted,
   • 	 The chart reviews conducted as part of the comprehensive program reviews, and
   • 	 The protocols followed during chart reviews.

Structured Interviews We conducted structured interviews in person and by telephone
with OPA central office representatives, the 10 OPA regional program consultants, and
representatives from each of the 10 regional training centers and the 2 clinical specialty
training grantees.

Central Office The structured interviews with representatives from OPA’s central office
included the following topics:

   • 	 The purpose of Title X grants,
   • 	 The roles of central office and regional offices in administering the Title X
       program,
   • 	 The central office’s understanding of grantee requirements regarding reporting of
       suspected child abuse and sexual abuse,
Page 5 - Alma L. Golden

   • 	 The methods the central office uses to inform and monitor regional offices and
       grantees regarding State reporting requirements, and
   • 	 The role of the training grantees.

Regional Offices The regional program consultant administers the Title X program in his
or her region and participates in the program reviews of the grantees. The structured
interviews with the regional program consultants included the following topics:

   • 	 The content and frequency of communication between the regional office and
       grantees regarding State reporting requirements,
   • 	 The extent to which the region has received guidance from the central office to
       address the reporting issue,
   • 	 The role of the training grantees and the types of training the grantees have
       received, and
   • 	 The extent to which the regional office monitors grantee activities and uses
       assessment tools that include State reporting requirements.

Training Grantees The structured interviews with the representatives from the 10
regional training centers and the 2 clinical specialty training grantees included the
following topics:

   • 	 Training conducted about State reporting requirements,
   • 	 Specific topics addressed by the training, and
   • 	 Training materials and agendas related to State reporting requirements.

Mechanisms for Informing Title X Grantees About Reporting Requirements

OPA informs its Title X service grantees about State reporting requirements for child
abuse and sexual abuse through a variety of methods that include written
communications, training, and discussions:

   • 	 In a memorandum dated January 12, 1999, OPA informed its regional offices
       about State reporting laws. This memorandum explained the language that had
       been added to the appropriations bill in 1999 concerning State reporting
       requirements. The memorandum stated that reporting and notification
       requirements referenced in the appropriations bill “concern State laws; the
       authority to enforce compliance with such laws lies with the States.” It urged
       Title X grantees to consult with their own attorneys for guidance, noting that
       States’ laws vary. OPA instructed the regional offices to share this memorandum
       with all Title X grantees.

   • 	 OPA informs grantees about State reporting requirements in its annual grant
       announcements. Most recently, the Federal Register, Vol. 69, No. 129, July 7,
       2004, announced the anticipated availability of funds for family planning service
Page 6 - Alma L. Golden

      grants for 2005 and instructed Title X grant applicants to address the relevant
      section of the appropriations bill about State reporting requirements.

   • 	 OPA issues an annual Notice of Grant Award to each Title X grantee that includes
       a statement about the State reporting requirements. The notice restates the
       appropriations bill language and identifies it as a special condition with which the
       grantee must agree. The notice also identifies the reporting requirements
       regarding child abuse and sexual abuse as a “key issue” that impacts the delivery
       of family planning services.

   • 	 OPA issues a Memorandum of Agreement and Work Plan Guidance that address
       State reporting requirements to its regional offices every year. These documents
       describe the agreement between central and regional offices on how Title X funds
       are to be used and how the program will be monitored. They include the
       appropriations bill language and instruct the regional offices to address State
       reporting requirements in their monitoring and training of grantees.

   • 	 OPA includes State reporting requirements in the training provided to grantees.
       Based on our review of training agendas and presentation materials and on our
       interviews with training center representatives, all 10 training centers include
       State reporting requirements in their training. All training centers identify
       mandatory reporters in their training. They also all present State-specific statutes
       and State-specific definitions of child abuse and sexual abuse in their training.
       Other training topics include identifying clients who may be at risk for sexual
       abuse, ethical issues in working with adolescents, and confidentiality
       requirements. All 10 regional program consultants report that all their grantees
       have received training on the topic of State reporting requirements in the past
       year.

   • 	 Based on our discussions with representatives from the two clinical specialty
       training grantees and a review of their training materials, these grantees also
       include State reporting requirements in their training. They teach clinicians to
       recognize possible victims of sexual coercion or sexual violence and to follow
       appropriate procedures when dealing with such cases. They offer training onsite
       and online to service grantees in all 10 regions.

   • 	 OPA central office representatives and regional program consultants report that
       they discuss State reporting requirements. Central office representatives say that
       they discuss reporting requirements with regional staff during semiannual
       meetings. They also hold monthly conference calls with regional staff, often
       discussing the reporting issue. In addition, all regional program consultants say
       that they discuss State reporting requirements with their grantees at least once a
       year. Seven of the ten consultants say they have these discussions 3 or more
Page 7 - Alma L. Golden

       times a year. Five of the ten mention that they also use e-mail to distribute
       instructions or answer grantees’ questions and concerns on this issue.

Reviews and Site Visits of Grantees

OPA regional offices monitor grantees through “comprehensive program reviews” and
annual site visits. Three components of the comprehensive program reviews address
State reporting requirements: chart reviews, policy reviews, and discussions with
grantees. Discussions between regional offices and grantees during annual site visits also
address State reporting requirements.

   • 	 OPA’s policy is that the regional offices conduct a comprehensive program
       review of a grantee every 3 years to examine financial, administrative, counseling,
       and clinical issues. The OPA central office does not issue specific guidance for
       conducting the comprehensive program reviews or the chart reviews included in
       them. The central office approves assessment tools developed by the regional
       offices to use in the reviews. The regional program consultants report that they
       conducted a total of 27 comprehensive program reviews in the past year.

   • 	 Based on our review of the assessment tools and on discussions with regional
       program consultants, all regions use an assessment tool in their comprehensive
       program reviews that includes State reporting requirements. Nine of the ten
       regions use an assessment tool entitled “Title X Program Review,” which was last
       updated in January 2003. This assessment tool’s Clinical Services Section
       includes a part dealing with contraceptive services entitled “Adolescent Services.”
       It contains an element stating, “Grantee/Delegate complies with state
       requirements regarding notification or reporting of child abuse, child molestation,
       sexual abuse, rape, or incest.” The assessment tool instructs the reviewer to mark
       a grantee “compliant” or “not compliant” with this element.

       The remaining region uses an assessment tool entitled “Site Visit Protocols for
       Conducting Program Reviews of Title X Family Planning Projects,” which was
       last updated in June 2003. The section on Adolescent Services in this assessment
       tool contains an element reading, “All clinical staff have received training on
       reporting sexual abuse, molestation, etc., based upon state requirements.” The
       assessment tool instructs the reviewer to mark a grantee “acceptable” or
       “unacceptable” in this element.

   • 	 Based on the comprehensive program reviews in the past year, the 10 regional
       program consultants report that they have not marked any grantees as “not
       compliant” or “unacceptable” in the State reporting requirement element in the
       assessment tool in the past year.
Page 8 - Alma L. Golden

   • 	 As a part of their comprehensive program reviews, all 10 regional program
       consultants report that their regions conduct chart reviews. The regional program
       consultants in nine of the regions report that they review the charts to determine
       whether and how the grantees are addressing State reporting requirements. The
       regional program consultant in the remaining region reports that her region does
       not review charts to specifically determine whether and how the grantee is
       addressing State reporting requirements. The reviewers in this region evaluate the
       chart for this element only if it is applicable to the particular case. According to
       the regional program consultants, the 10 regional offices conducted a total of
       1,044 chart reviews in the past year.

   • 	 The regional program consultants report that they use different methods for
       reviewing charts. Eight of the regional program consultants say that their
       reviewers examine the medical histories and client responses contained in the
       charts for any indication of abuse or sexual coercion. Six regional program
       consultants say that the reviewers use the grantees’ policies and procedures when
       reviewing charts for reporting activity. Six regional program consultants say that
       reviewers examine the chart notes on counseling. Five regional program
       consultants say that reviewers check if appropriate followup is documented in the
       charts when abuse is indicated.

   • 	 Seven of the ten regional program consultants say that the charts are selected
       randomly for review. The remaining three regions select purposive samples,
       based on a certain time period or on case characteristics such as client age, client
       gender, or services received. All regional program consultants say that nurses or
       nurse practitioners review the charts. Two regional program consultants also say
       that they use physicians to review charts.

   • 	 Based on the chart reviews in the past year, one regional program consultant
       reports finding one chart that documented an identified instance of child abuse,
       child molestation, sexual abuse, rape, or incest. This region also found an
       indication that the one identified instance of abuse was reported as required by the
       applicable State requirements. The regional program consultant in another region
       notes that grantees there found that their delegates have identified cases of abuse
       and reported them as required. A regional program consultant in a third region
       says that reviewers found some indication that one client might have been abused
       in the past, although it was unclear from the chart if the case should have been
       reported. The regional program consultant says the issue was brought to the
       attention of the clinic director, delegate agency staff, and grantee.

   • 	 All 10 regional program consultants also report that they conduct policy reviews
       and have discussions with grantees about State reporting activities as part of their
       comprehensive program reviews. They say that the regional representatives
       determine whether grantees have policies and procedures in place that describe
Page 9 - Alma L. Golden

       when and how to report suspected abuse. All the regional program consultants
       say that they also speak with grantee directors and staff to gain a better
       understanding of grantees’ knowledge of their requirements. These discussions
       sometimes involve regional representatives presenting scenarios to clinic
       personnel to find out how a possible case of sexual abuse would be handled.

   • 	 All regional program consultants report that they address Title X grantees’
       reporting activities during annual site visits. They say that they conduct a site
       visit with each grantee every year that the grantee is not undergoing a
       comprehensive program review. During these annual visits, regional program
       consultants say they hold discussions with grantee directors and staff about their
       knowledge of reporting requirements and what policies and procedures they have
       to meet these requirements.

Summary

In summary, we found that OPA has informed and periodically reminds Title X grantees
of their responsibilities regarding State child-abuse and sexual-abuse reporting
requirements. Furthermore, OPA includes State reporting requirements in its reviews and
site visits of grantees.

Agency Comments

OPA provided comments on the draft memorandum. OPA concurred with our findings
and included additional information regarding its efforts to inform, train, and monitor
grantees on this issue. The full text of its comments is attached.


Attachment
